                                                                             Report No. DODIG-2014-058


              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              APRIL 11, 2014




                     Commercial Multimodal Cargo
                     Procedures in Dubai Were Generally
                     Effective, but Contract Oversight
                     Could Be Improved




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Commercial Multimodal Cargo Procedures in Dubai
                                       Were Generally Effective, but Contract Oversight
                                       Could Be Improved


April 11, 2014                                          Finding Continued

Objective                                               operations because the contract structure allowed oversight
                                                        from headquarters, instead of Dubai. In addition, contracting
This is one in a series of reports regarding U.S.       officials did not test contractor-submitted electronic data
Transportation Command’s (USTRANSCOM’s)                 interchange transactions used to verify contractor performance
support of the Afghanistan drawdown. Our                because they did not develop internal control procedures to
objective was to determine whether effective            validate the in-transit visibility (ITV) data. Additionally, they did
procedures were in place to process equipment           not maintain records of all subcontractors performing under
at transfer locations in Southwest Asia. We             the contract because the contract did not require the prime
evaluated whether the security, accountability,         contractors to submit the names of their subcontractors.
and timeliness of commercial multimodal
procedures in Dubai were effective and whether          As a result, the prime contractors contacted the
controls were in place to provide oversight of          840th Transportation Battalion officials in Dubai to resolve
the process.                                            cargo-processing problems instead of officials with delegated
                                                        contractual authority. In addition, contracting officials had

Finding                                                 minimal assurance that the prime contractors submitted accurate
                                                        ITV transactions and were unable to identify subcontractors
USTRANSCOM         generally    used     effective      excluded from receiving Federal contracts.
procedures     for    processing      commercial
multimodal cargo in Dubai.              However,
U.S. Central Command’s Customs and Border               Recommendations
Clearance Agents (CBCAs) did not always apply           We recommend the Director, USTRANSCOM Acquisitions,
U.S.-compliant seals because they followed              require the contracting officer to appoint a COR in Dubai;
outdated guidance. As a result, unauthorized            periodically test contractor-submitted ITV transactions; and
individuals could gain access to, and potentially       require the prime contractors to semi-annually submit a list of all
steal, Government cargo during transit. When            subcontractor companies.
notified, U.S. Central Command officials
promptly took action to fix the deficiency.
                                                        Management Comments
In addition, USTRANSCOM contracting officials           The Deputy Commander, USTRANSCOM, generally addressed
did not provide sufficient oversight because            the recommendations; however, comments on Recommendation
they structured the contract to minimize                2 partially addressed the recommendation. Therefore, we are
Government       involvement.      Specifically,        requesting additional comments on Recommendation 2 by
USTRANSCOM contracting officials did not                May 12, 2014. Please see the Recommendations Table on the
appoint a contracting officer’s representative          back of this page.
(COR) in Dubai to oversee contractor


Visit us on the web at www.dodig.mil


                                                                             DODIG-2014-058 (Project No. D2013-D000JA-0155.000) │ i
                   Recommendations Table
                                                              Recommendations       No Additional
                                        Management            Requiring Comment   Comments Required
                    Director, U.S. Transportation Command     2                   1, 3
                    Acquisitions

                   Please provide comments by May 12, 2014.




ii │ DODIG-2014-058 (Project No. D2013-D000JA-0155.000)
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                    April 11, 2014

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
		            COMMANDER, U.S. TRANSPORTATION COMMAND
		            AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Commercial Multimodal Cargo Procedures in Dubai Were Generally Effective,
	        but Contract Oversight Could Be Improved (Report No. DODIG-2014-058)

We are providing this report for your review and comment. U.S. Transportation Command
(USTRANSCOM) generally used effective procedures for processing commercial multimodal cargo
in Dubai. However, U.S. Central Command’s Customs and Border Clearance Agents did not
apply U.S.-compliant seals on 11 of the 51 containers tested, and USTRANSCOM contracting
officials did not sufficiently oversee the multimodal contract. We considered management
comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from the
Deputy Commander, U.S. Transportation Command, generally addressed the recommendations;
however, comments on Recommendation 2 partially addressed the recommendation. Therefore,
we are requesting additional comments on Recommendation 2 by May 12, 2014.

Please send a PDF file containing your comments to audrco@dodig.mil. Copies of your comments
must have the actual signature of the authorizing official for your organization. We cannot accept
the /Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 699-7331
(DSN 499-7331).




	                                            Carol Gorman
	                                            Assistant Inspector General
	                                            Readiness and Cyber Operations




                                                                                            DODIG-2014-058 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________4

                  Finding. Procedures for Processing Commercial
                  Multimodal Cargo in Dubai Were Generally
                  Effective, but USTRANSCOM Could Improve
                  Contract Oversight __________________________________________________________________5
                  Dubai Commercial Multimodal Processing Was Generally Effective_________________________6
                  Noncompliant Container Seals Could Lead to Theft __________________________________________7
                  Insufficient Contract Oversight in Dubai_______________________________________________________9
                  Conclusion______________________________________________________________________________________ 15
                  Recommendations, Management Comments, and Our Response__________________________ 16

                  Appendixes
                  Appendix A._____________________________________________________________________________________ 18
                         Scope and Methodology________________________________________________________________ 18
                         Use of Computer-Processed Data _____________________________________________________ 19
                         Use of Technical Assistance____________________________________________________________ 19
                  Appendix B. _ __________________________________________________________________________________ 20
                         Prior Coverage _________________________________________________________________________ 20

                  Management Comments_____________________________________________________ 22
                  U.S. Transportation Command________________________________________________________________ 22

                  Acronyms and Abbreviations______________________________________________ 24




iv │ DODIG-2014-058
                                                                                                Introduction




Introduction
Objective
This is one in a series of reports regarding U.S. Transportation Command’s (USTRANSCOM’s)
support of the Afghanistan drawdown. Our objective was to determine whether effective
procedures were in place to process equipment at transfer locations in Southwest Asia.
Therefore, we focused on commercial multimodal operations in Dubai. Specifically, we
evaluated whether onsite personnel properly accounted for, secured, and processed cargo
in a timely manner. In addition, we evaluated whether USTRANSCOM contracting officials
sufficiently oversaw the commercial multimodal contractors in Dubai. See Appendix A
for a discussion of our scope and methodology and see Appendix B for prior audit coverage
related to the audit objective.


Background
In June 2011, the President of the United States announced that U.S. forces would begin
drawing down operations in Afghanistan. The United States is set to transition its mission
in Afghanistan to a train and assist mission after December 2014. The train and assist
mission will require fewer troops and equipment. Therefore, DoD will continue to remove
troops and equipment from Afghanistan through December 2014.

As of December 2013, DoD needed to ship an estimated 24,000 pieces of equipment out of
Afghanistan. However, the drawdown of equipment from Afghanistan includes challenges
such as geography, weather, and occasional disruptions in the land routes. To overcome
these challenges, DoD has developed multiple transportation routes to provide redundant
capabilities that meet the drawdown requirements. Using a variety of transportation
routes allows DoD to balance the logistics workload, and reduce the vulnerability of a single
point of failure.

USTRANSCOM, headquartered at Scott Air Force Base, Illinois, establishes and maintains
the network of transportation routes used to transport equipment out of Afghanistan.
USTRANSCOM’s Army Service Component Command, U.S. Military Surface Deployment
and Distribution Command (SDDC), oversees contractor operations for all shipments
of military equipment from Afghanistan, including facilitating booking and execution,
and maintaining in-transit visibility (ITV). SDDC accomplishes this mission through the
use of the 595th Transportation Brigade in Kuwait and their subordinates: the 840th and
831st Transportation Battalions.




                                                                                           DODIG-2014-058│ 1
Introduction



                Multimodal Operations
                Multimodal operations are one of the transportation options established by
                USTRANSCOM for transporting cargo out of Afghanistan.                                              Multimodal operations
                provide transportation of DoD and U.S. Government cargo via multiple modes of
                transportation, including airlift, sealift, and line haul to or from multiple locations
                globally.        USTRANSCOM               established         two       types      of     multimodal           operations         for
                Afghanistan—hybrid and commercial multimodal. Hybrid multimodal transportation
                is a blend of military and commercial transportation. Specifically, equipment is flown
                out of Afghanistan on a U.S. military aircraft to a multimodal location where contractors
                process and load the cargo onto a commercial vessel for onward movement to its
                final destination.

                Commercial multimodal transportation is a door-to-door process with minimal
                Government involvement, intended to increase flexibility and reduce transit times.
                The contractors are responsible for picking equipment up
                at remote bases in Afghanistan, transporting the equipment
                to the airport, flying the equipment to a multimodal                                                  Commercial
                                                                                                                      multimodal
                location, and then cleaning and loading the cargo onto
                                                                                                                  transportation is a
                a vessel for onward movement to its final destination.                                           door-to-door process
                The contractor is responsible for the cargo during                                                   with minimal
                the entire movement.                    As of December 2013, hybrid                                  Government
                                                                                                                     involvement.
                and commercial multimodal transportation accounted
                for 29 percent of outbound cargo from Afghanistan.


                Dubai Commercial Multimodal Operations
                The Dubai, United Arab Emirates, multimodal route supports both the hybrid and
                commercial multimodal transportation methods.                                     Dubai is also the primary route
                when equipment cannot transport through Pakistan.                                       The Dubai route is approved
                to process sensitive, nonlethal, and nonsensitive cargo.                                         Between January 2013
                and September 2013, over 3,200 pieces of rolling stock and nonrolling stock1 were
                processed through the Dubai commercial multimodal route.                                                    The commercial
                multimodal contractors fly cargo from Afghanistan to the Al Maktoum International
                Airport, where they clean and stage the cargo while obtaining clearance from the
                United Arab Emirates government. After contractors clean the cargo, U.S. Customs and


                	1	
                      Rolling stock includes wheeled vehicles, tracked combat vehicles, wheeled and tracked construction equipment, trailers,
                      semi-trailers, and any other standard trailer-mounted equipment. Nonrolling stock encompasses all other equipment that
                      is not rolling stock. For purposes of this report, nonrolling stock refers to all containers used by multimodal contractors to
                      transport cargo from Afghanistan.




2 │ DODIG-2014-058
                                                                                        Introduction



Border Clearance Agents (CBCAs) inspect it for clearance into the United States. Once
the contractors obtain clearance from the CBCAs and the United Arab Emirates
government, they tarp and move the cargo to the Jebel Ali seaport, where it is loaded
onto a vessel for further movement to its final destination. The figure below shows
the commercial multimodal process in Dubai.

Figure. Commercial Multimodal Process in Dubai




Customs and Border Clearance Agents
USTRANSCOM is the Executive Agent for the DoD Customs and Border Clearance
Program, and U.S. Central Command (USCENTCOM) has command authority for
pre-clearance customs inspections in its area of responsibility. USCENTCOM executes
its authority by issuing guidance and providing CBCA training. USCENTCOM issued
USCENTCOM Regulation 600-10, “Customs and Border Clearance Program (CBCP),”
August 9, 2012, to define responsibilities and explain procedures for customs
and agriculture pre-clearance operations.     Specifically, CBCAs are responsible for
inspecting, certifying, and sealing all cargo shipped to the United States to ensure
it complies with U.S. Department of Agriculture and U.S. Customs and Border
Protection importation requirements.




                                                                                    DODIG-2014-058 │ 3
Introduction



                     Commercial Multimodal Contract
                     USTRANSCOM awarded the fixed-price economic price adjustment, indefinite-
                     delivery, indefinite-quantity commercial multimodal contract to four contractors on
                     August 1, 2012. The contract was protested, resulting in USTRANSCOM awarding the
                     contract to a fifth contractor on October 25, 2012.2 The contract’s base period plus
                     the two option periods are worth approximately $1.4 billion.3 Under the commercial
                     multimodal contract, contractors are responsible for providing all personnel,
                     training, supervision, equipment, and customs clearance procedures necessary to
                     perform multimodal movement for DoD-approved cargo. Specifically, contractors are
                     responsible for safeguarding all cargo and ensuring that all Government-provided
                     equipment remains in their possession at all times.

                     Although USTRANSCOM Acquisitions retained administrative responsibility for the
                     contract, it delegated contract oversight to SDDC. As of December 2013, SDDC had
                     14 contracting officer’s representatives (CORs) responsible for monitoring contractor
                     performance who had overall surveillance of the commercial multimodal contract.
                     Specifically, SDDC had seven CORs at USTRANSCOM Headquarters, Scott Air Force
                     Base, Illinois, and seven located at the Ocean Cargo Clearance Authority Southwest
                     Asia office in Bahrain. The CORs are responsible for providing technical assistance to
                     the contracting officer by ensuring contractor compliance with the technical
                     requirements of the contract.


                     Review of Internal Controls
                     DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                     May 30, 2013, requires DoD organizations to implement a comprehensive system of
                     internal controls that provides reasonable assurance that programs are operating as
                     intended and to evaluate the effectiveness of the controls. We identified an internal
                     control weakness pertaining to the verification of contractor-provided data for
                     performance measures. Specifically, USTRANSCOM contracting officials did not test
                     the accuracy of the electronic data interchange (EDI) transactions to determine
                     whether the contractor was meeting the ITV performance objective in the contract.
                     We will provide a copy of this report to the senior official responsible for internal
                     controls at USTRANSCOM Acquisitions.


                     	2	
                         The five contractors are: American President Lines Limited Incorporated, Liberty Global Logistics Limited Liability Company,
                         National Air Cargo Group Incorporated, World Airways Incorporated, and Farrell Lines Incorporated.
                     	3	
                         The base period ended on July 31, 2013, and was not to exceed $365.7 million. Option one period began on
                         August 1, 2013, which is not to exceed $484.6 million, and the second option period will begin on August 1, 2014, not to
                         exceed $513.6 million.




4 │ DODIG-2014-058
                                                                                                        Finding




Finding
Procedures for Processing Commercial Multimodal
Cargo in Dubai Were Generally Effective, but
USTRANSCOM Could Improve Contract Oversight
USTRANSCOM generally used effective procedures for processing commercial
multimodal cargo in Dubai. For example, USTRANSCOM’s contractors accounted for,
secured, and processed cargo in a timely manner. However, the CBCAs did not apply
U.S.-compliant container seals on 11 of 51 containers tested when certifying cargo
for clearance into the United States. The CBCAs did not always apply U.S.-compliant
container seals because they followed outdated USCENTCOM guidance that did not
explain the specific DoD container-sealing requirements. As a result, unauthorized
individuals could gain access to, and potentially steal, Government cargo during
transit. We notified USCENTCOM officials that containers were not sealed in accordance
with applicable regulations. When notified of the problem, the USCENTCOM officials
promptly took action to fix the identified deficiency.



In addition, USTRANSCOM contracting officials did not sufficiently oversee the
commercial multimodal contract because they structured the contract to minimize
Government involvement. Specifically, USTRANSCOM contracting officials did not:

        •	 appoint a COR in Dubai to oversee contractor operations because the
           contract structure allowed oversight from headquarters instead of
           sites where work was performed. As a result, contractors contacted the
           840th   Transportation     Battalion        to   resolve   cargo-processing   issues,
           increasing the risk for the 840        th
                                                        Transportation Battalion to perform
           surveillance of the contractors without having an official delegated
           contract oversight role.

        •	 test contractor-submitted EDI transactions used to verify contractor
           performance for the ITV performance measure as required by Federal
           Acquisition Regulation (FAR) part 46, “Quality Assurance,” because they
           did not develop internal control procedures to validate the ITV data. As a
           result, contracting officials had minimal assurance that the contractors
           submitted accurate ITV transactions, increasing the risk that contractors
           report incorrect ITV data to receive a high performance rating.




                                                                                               DODIG-2014-058 │ 5
Finding



                                •	 maintain records of all subcontractors performing under the commercial
                                    multimodal contract because the contract only required the prime
                                    contractors to submit a partial list of subcontractor names at the end of the
                                    performance period. As a result, contracting officials were not fully aware
                                    of all subcontractors performing services on behalf of the Government and
                                    may not be able to identify parties excluded from receiving Federal contracts.


                 Dubai Commercial Multimodal Processing Was
                 Generally Effective
                 USTRANSCOM officials and their commercial multimodal contractors generally
                 accounted for, secured, and processed cargo in a timely manner.                                            To determine
                 whether commercial multimodal cargo was properly accounted for, we conducted a
                 sample inventory of U.S. military cargo in Dubai from September 6, 2013, through
                 September 8, 2013. Specifically, we sampled cargo from four of the five contractors
                 responsible for transporting cargo through Dubai.4 In total, we selected a
                 nonstatistical sample of 90 pieces of commercial multimodal cargo at Al Maktoum
                 International Airport and the Jebel Ali seaport. We identified all 90 pieces of cargo
                 on the 840th Transportation Battalion’s accountability records and have assurance
                 that personnel properly accounted for commercial multimodal cargo we sampled in
                 Dubai. The table on this page illustrates the floor-to-book and book-to-floor testing
                 for rolling stock and nonrolling stock cargo we tested.

                 Table. Book-to-Floor and Floor-to-Book Testing of Commercial Multimodal Cargo
                                                                Number of Items Tested
                         Inventory Type                                  Nonrolling                                  Location Tested
                                                   Rolling Stock                                Total
                                                                          Stock*
                                                                                                                     Al Maktoum
                          Book-to-Floor                   32                  33                 65            International Airport and
                            Inventory                                                                              Jebel Ali seaport
                          Floor-to-Book                    7                  18                 25                 Jebel Ali seaport
                            Inventory
                               Total                      39                  51                 90
                     * All nonrolling stock items were containers




                 	 4	
                        We did not sample cargo processed by American President Lines’ contractors because their cargo was located in a
                        robotically operated container yard at the Jebel Ali seaport. The container yard was unsafe to enter due to the
                        moving equipment.




6 │ DODIG-2014-058
                                                                                                 Finding



Additionally, the contractors were required to follow their commercial surface and
air security procedures to safeguard all cargo against terrorism, theft, loss, tampering,
or damage. The contractors were responsible for flying the commercial multimodal
cargo into the secure Al Maktoum International Airport, where it was washed and
prepared for convoy. Security escorts accompanied the contractors as they convoyed the
cargo on a secure road from Al Maktoum International Airport to the Jebel Ali seaport.
Once at the seaport, seaport officials secured the commercial multimodal cargo until
it was loaded onto a vessel. Throughout the commercial multimodal process in Dubai,
the cargo remained in a fenced-in area known as the “free zone,” which included the
airport, seaport, and secure road between the two. In addition, Dubai seaport and
airport officials stated they follow international security standards and routinely have
security audits to ensure cargo processing through Dubai is properly secured. We did
not identify evidence of theft and believe that commercial multimodal cargo was generally
secured in Dubai, with the exception of noncompliant seals placed on containers.

Based on documents provided by an SDDC official, from January 2013 through
September 2013, commercial multimodal contractors shipped cargo received from
Afghanistan through Dubai in an average of 15 days, which includes an average of 6 days
at the Jebel Ali seaport and an average of 9 days at Al Maktoum International Airport.
According to officials in Dubai, storage fees may be incurred for cargo stored longer
than 10 days at Al Maktoum International Airport.           As of November 18, 2013,
USTRANSCOM had not been charged storage fees in Dubai.


Noncompliant Container Seals Could Lead to Theft
CBCAs in Dubai did not ensure compliant container seals were placed on shipping
containers in accordance with applicable guidance. Specifically, Section 944, Title 6,
United States Code (6 U.S.C. § 944 [2010]), “Container Security Standards and Procedures,”
and Department of Homeland Security U.S. Customs and Border Protection Decision 08-30,
“Container Seals on Maritime Cargo,” state all maritime containers in transit to the United
States by vessel must be sealed with a seal that meets the International Organization
for Standardization Publicly Available Specification 17712 (ISO/PAS 17712) standard
for sealing containers. ISO/PAS 17712-compliant seals are bolt or cable locks.
Additionally, USCENTCOM Regulation 600-10, “Customs and Border Clearance Program,”
August 9, 2012, states CBCAs will inspect and seal containers with Air Mobility
Command-approved seals (noncompliant seal) for all cargo scheduled to be transported
by aircraft within the USCENTCOM area of responsibility. The noncompliant seal is
necessary so that aircrews can quickly cut through the seal with a multi-tool in the
event of an inflight emergency.     Therefore, the approved ISO/PAS 17712-compliant



                                                                                        DODIG-2014-058 │ 7
Finding



                 seals are not used during flights. However, when cargo arrives at another location
                 where it will be loaded onto a sea vessel for shipment to the United States, CBCAs
                 are required to place an ISO/PAS 17712-compliant bolt seal on the container
                 without removing the original seal.

                 The CBCAs in Dubai did not apply compliant seals to
                 containers5 already sealed with noncompliant seals,
                                                                                                                  11 of 51
                 in accordance with USCENTCOM regulations.                                    During           (21.5 percent)
                 our review and analysis of shipping operations in                                         containers reviewed
                 Dubai, we observed several shipping containers with                                       did not have ISO/PAS
                                                                                                             17712-compliant
                 only noncompliant seals that had been cleared by the
                                                                                                             seals, as required.
                 CBCAs in Dubai.                Specifically, we found that 11 of 51
                 (21.5 percent) containers reviewed did not have ISO/PAS
                 17712-compliant seals, as required.

                 The CBCAs in Dubai did not follow USCENTCOM container seal requirements because
                 they followed outdated USCENTCOM guidance that did not explain the specific
                 requirements for sealing containers with ISO/PAS 17712-compliant seals or explain
                 what seals should be used on containers entering the United States. Specifically, a
                 CBCA official stated that the CBCAs did not place compliant seals on containers that
                 already had a noncompliant seal.6                           Although USCENTCOM Regulation 600-10 was
                 updated in 2012 to include the specific requirements and instructions for properly
                 sealing containers with the compliant seals, USCENTCOM officials indicated that the
                 2010 version was still used in Southwest Asia.

                 Containers that are not properly sealed could be more susceptible to unauthorized
                 access during shipment, which could lead to theft during transit. Noncompliant seals
                 can be easily cut with a multi-tool or separated and put back together. In addition,
                 U.S. Customs and Border Protection may assess civil penalties against the shippers
                 who try to transport containers into the United States contrary to the 6 U.S.C. § 944
                 (2010) requirements.




                 	 5	
                        The contents in the containers included troop clothing, repair parts, and tools.
                 	 6	
                        Noncompliant seals are thin strips of metal that can be cut with a multi-tool.




8 │ DODIG-2014-058
                                                                                                                                          Finding



Management Actions Taken
On September 20, 2013, we communicated our concerns about the noncompliant
container seals to USCENTCOM officials, who took immediate action. USCENTCOM
                                         officials stated that the CBCA officials in Dubai were
                                              unaware          of     the      updated        directives.        Therefore,
                 We
                                                 USCENTCOM             officials      contacted        the      U.S.    Army
           communicated
         our concerns about                        Central Command, Theater Customs Agent, directed
          the noncompliant                          compliance with the USCENTCOM guidance for
          container seals to                        sealing containers with ISO/PAS 17712-compliant
        USCENTCOM officials,
        who took immediate                          seals, and required that refresher training be
               action.                            provided to the CBCAs in Dubai.                        In addition, on
                                               December 19, 2013, an SDDC official stated that
                                        developed additional procedures to inspect container
seals in Dubai on a weekly basis to ensure that CBCAs used the proper ISO/PAS
17712-compliant seals. The official provided a copy of the log for the week of
December 22, 2013. These actions address the concerns we identified; therefore,
no additional actions are required.


Insufficient Contract Oversight in Dubai
USTRANSCOM contract officials did not sufficiently oversee commercial multimodal
operations in Dubai.                 Specifically, USTRANSCOM contract officials did not appoint
a COR in Dubai, have a quality control program to test contractor-submitted
data, or maintain a comprehensive list of subcontractors. This occurred because
USTRANSCOM designed the contract to minimize Government involvement.


Oversight Representatives Were Not Onsite
USTRANSCOM appointed 14 CORs to oversee the commercial
multimodal contract.                 However, no CORs were co-located                                      No
with contract operations in Dubai. The DoD COR handbook                                                CORs were
addresses key aspects of contract quality surveillance                                                 co-located
                                                                                                      with contract
and the roles and responsibilities of the COR.7 The                                                   operations in
handbook             further       states      that      contract        surveillance                    Dubai.
is vital to:              ensure contractors are providing quality
services and supplies in a timely manner; mitigate contractor


	 7	
       Although the handbook is intended as a supplement, and CORs should refer to the contract, COR appointment letter, and
       the contracting officer for COR-required responsibilities, the handbook provides guidance for due diligence of CORs for
       contract surveillance and can be used as a best practice.




                                                                                                                                 DODIG-2014-058 │ 9
Finding



                 performance problems; and ensure the Government receives best value for the
                 warfighter.     In addition, the handbook states that the CORs conduct contract
                 surveillance “to verify that the contractor is fulfilling contract requirements and to
                 document performance for the contract record.” Specifically, the handbook states
                 “CORs function as the eyes and ears of the contracting officer and are a liaison
                 between       the   Government       and    contractor   when    executing      surveillance
                 responsibilities.” It also states that remediating nonconformance relies heavily on the
                 COR’s observation and documentation. Additionally, the handbook states that “CORs
                 must monitor contractor performance through review of monthly reports, onsite
                 visits, and surveillance reviews.”

                 As of December 2013, there were seven CORs for the commercial multimodal contract
                 at USTRANSCOM Headquarters and seven CORs in the Ocean Cargo Clearance
                 Authority Southwest Asia Quality Assurance Office in Bahrain.             CORs in Illinois
                 and Bahrain could not closely monitor contractor performance in Dubai.

                                                Although the 840th Transportation Battalion had a
                               CORs                detachment in Dubai, the USTRANSCOM contracting
                              at SDDC
                                                    officer did not appoint a member of the detachment
                        headquarters and
                        in Bahrain stated             as a COR in Dubai for the commercial multimodal
                      that they relied on the         contract.   However, CORs at SDDC headquarters
                      840th Transportation            and in Bahrain stated that they relied on the
                       Detachment as their
                         eyes and ears on             840th Transportation Detachment as their eyes and
                            the ground.            ears on the ground, even though the detachment
                                                 primarily focused its mission on hybrid operations.
                                            Furthermore, the 840th Detachment had minimal knowledge
                 of   and   involvement     with    commercial    operations,   and   no   official   contract
                 management or oversight role to report any issues or concerns involving commercial
                 multimodal contractors.


                 Contract Was Designed With Minimal Oversight
                 Challenges with contract oversight occurred because USTRANSCOM structured
                 the commercial multimodal contract to have CORs provide oversight from Bahrain
                 and USTRANSCOM Headquarters. Therefore, CORs did not routinely travel to Dubai to
                 observe operations.        Specifically, USTRANSCOM officials stated the oversight
                 structure of the commercial multimodal contract was designed to have minimal
                 Government involvement. In addition, a USTRANSCOM official stated that the commercial
                 multimodal contract is a commercial services contract using commercial carrier




10 │ DODIG-2014-058
                                                                                                                             Finding



efficiencies and processes, which gives the contractors ultimate responsibility for
transporting U.S. Government cargo.                          The CORs at USTRANSCOM Headquarters
were primarily responsible for evaluating the contractor’s only two performance
measures, and the CORs in Bahrain were primarily responsible for addressing any
issues the carriers may have during daily operations. USTRANSCOM should appoint
a COR in Dubai to be familiar with commercial operations and to observe and
monitor contractor performance.


Potential for Personnel Without Authority to
Oversee Contractors
With no CORs in Dubai, contractors contacted the 840th Transportation Battalion
to resolve cargo-processing issues, increasing the risk for the 840th Transportation
Battalion to perform surveillance of the contractors without having an official
delegated contract management role.                          Although the 840th Transportation Battalion
is considered the CORs’ eyes and ears of the commercial multimodal operations in
Dubai, it has minimal involvement with commercial multimodal operations. The
CORs should be intimately involved with observations of the contractors’ operations
so they can bring concerns directly to the contracting officer. Therefore, without a
COR in Dubai, the observations of the contractors’ operations may not regularly occur
or be sufficiently reported.


Contractor Performance Data Was Not Tested for Accuracy
USTRANSCOM contracting officials did not test the accuracy of contractor data
used to evaluate contractor performance. Specifically, the performance work
statement of the commercial multimodal contract evaluates the
contractor’s performance using two objectives, on-time
delivery and ITV. The ITV performance objective requires
                                                                                             USTRANSCOM
the contractor to provide accurate and timely shipment                                     contracting officials
status reports using EDI.8 The commercial multimodal                                         did not test the
contract quality assurance surveillance plan (QASP),                                      accuracy of contractor
                                                                                          data used to evaluate
states        that     contractor-provided             EDI     transactions                    contractor
are the primary data source for the U.S. Government’s                                         performance.
program of monitoring contractor performance objectives.




	 8	
       EDI is the computer-to-computer exchange of business data in machine-readable language.




                                                                                                                   DODIG-2014-058 │ 11
Finding



                 According to Office of Management and Budget Circular A-123, “Management’s
                 Responsibility for Internal Controls,” management has a fundamental responsibility
                 to develop and maintain effective internal controls.                                          Specifically, the Circular
                 states that application controls should be designed to ensure that transactions are
                 processed accurately and that the data is valid and complete, and controls should
                 be established to verify inputs and outputs for complete and accurate information
                 processing. The commercial multimodal contract requires the contractor to provide
                 the Government accurate EDI transactions within 24 hours of the event for the ITV
                 performance objective.9 A COR stated that the contractor will enter the reportable
                 event date into their own system, which then uploads the event date into the Pipeline
                 Asset Tool,10 using EDI transactions. The Pipeline Asset Tool automatically calculates
                 if the EDI transactions were submitted within 24 hours based on a comparison of
                 the contractor-entered date and the date the EDI transaction was submitted. The
                 QASP states that a COR will generate an ITV performance report each month from the
                 Pipeline Asset Tool. However, a COR stated that the CORs do not verify the information
                 entered by the contractor. Therefore, EDI transactions were evaluated based entirely
                 on contractor-provided data and were not independently checked by COR officials. A
                 COR further stated that the CORs had to trust the contractor to submit accurate data.


                 Need for Quality Control Program to Verify Data Used to
                 Evaluate Contractors
                 Contractor-submitted data was not verified because USTRANSCOM contracting
                 officials did not develop a quality control program to test it. FAR subpart 46.1 states
                 that the contracting office is responsible for verifying that the contractor fulfills the
                 contract quality requirements when contract administration is retained. Therefore,
                 because USTRANSCOM Acquisitions retained contract administration, the contracting
                 office is responsible for verifying that the contractor is conforming to this contractual
                 requirement and completing EDI transactions within 24 hours. The QASP provides
                 the performance objective assessment as the Government’s strategy for assessing the
                 contractor’s performance based on contractor-provided data. According to the QASP,
                 the contractor’s performance for the ITV performance objective should be assessed
                 by 100-percent inspection of all transportation movements. However, the CORs only
                 evaluate the timeliness of the contractor-provided data using the Pipeline Asset Tool
                 calculations. An SDDC official stated that the CORs do not evaluate the accuracy of
                 the contractor-submitted data. Therefore, the USTRANSCOM contracting office did

                 	9	
                         The ITV performance objective is weighted at 25 percent of the contractor’s overall performance rating.
                 	 10	
                         The Pipeline Asset Tool is a suite of business portals that supports the SDDC global transportation mission and provides
                         SDDC contract compliance teams the ability to measure ocean carrier performance.




12 │ DODIG-2014-058
                                                                                                  Finding



not meet the requirements outlined in FAR part 46 or the intent of the QASP.
USTRANSCOM contract officials should update the QASP to detail procedures for
periodically testing contractor-submitted EDI data to properly verify the contractor’s
performance for ITV.


Minimal Assurance of Accurate Contractor Data
USTRANSCOM had minimal assurance that the contractors submitted accurate EDI
transactions. Since USTRANSCOM does not verify EDI transactions, the Government is at
                           risk that contractors could enter dates that are within 24 hours
                                regardless of whether the events actually occurred within
             Because
         USTRANSCOM               24 hours. Without controls to verify contractor data,
       contract oversight           contractors may receive a higher performance rating.
         officials do not            One of the determinations for the Government’s
     verify the accuracy of
   contractor-submitted data,        best value analysis when awarding task orders
     USTRANSCOM cannot               is past performance of the two performance
       be certain that the           objectives. Therefore, there is an incentive for the
      contractor’s data is
                                    contractors to receive a higher performance rating
        accurate or valid.
                                  score because USTRANSCOM contract officials use
                                past performance ratings to award future task orders.
                          Because USTRANSCOM contract oversight officials do not
verify the accuracy of contractor-submitted data, USTRANSCOM cannot be certain that the
contractor’s data is accurate or valid for 25 percent of the contractor’s overall
performance rating.


USTRANSCOM Contracting Officials Were Unfamiliar
with Subcontractors
USTRANSCOM contracting officials were unfamiliar with the subcontractors performing
operations for the commercial multimodal contract. Specifically, USTRANSCOM contracting
officials did not maintain a comprehensive list of all subcontractors used by the prime
contractors to perform commercial multimodal operations. When the commercial
multimodal contract was awarded on August 1, 2012, 11 subcontractors were identified
for the prime contractors’ use. However, a USTRANSCOM contracting official stated that
the contractors could be subcontracting with companies unfamiliar to USTRANSCOM.
Through meetings with contractor personnel, and documents provided by contracting
officials, we identified at least 50 subcontracted companies. However, we could not identify
the total number of subcontractors performing for the commercial multimodal contract.




                                                                                        DODIG-2014-058 │ 13
Finding



                The performance work statement identifies special factors that would compel the
                contracting officer to assist in determining subcontractor responsibility. These factors
                include substantial subcontracting and the risk of terrorism and hostiles. According
                to the performance work statement, the contracting officer must periodically make
                available to the contractor the name of potential subcontractors with questioned
                responsibility.           However,         without         knowledge         of     all    subcontracted           companies,
                the        contracting        officer      may       not     be     able      to     identify      subcontractors           with
                questioned responsibility.

                Additionally, multiple reports on subcontractors in Southwest Asia have identified
                the need for contracting officials to maintain awareness of subcontractors during
                wartime contracting. The U.S. Government Accountability Office, the Special Inspector
                General for Afghanistan Reconstruction, and the Congressional Research Service have
                identified that             contracting         officials      need     to    gain        and   maintain        visibility      of
                subcontracting              networks,         and       that      excessive        subcontracting            tiers      provide
                opportunities for criminal networks and insurgents to divert contract money from its
                intended purpose. 11


                USTRANSCOM Contracting Officials Did Not Require Submission
                of Subcontractor Names
                USTRANSCOM contracting officials did not include a requirement in the contract for
                a periodic review of all subcontractors performing under the commercial multimodal
                contract. For example, the contract included Contract Clause 952.225-0005, “Monthly
                Contractor Census Reporting,” which required the contractor to submit the total number of
                employees and a breakdown of the number of U.S. citizens, local nationals, or third-country
                nationals, to include prime and subcontractors. However, the clause did not require the
                prime contractors to submit the names of their subcontractor companies. Additionally,
                the commercial multimodal contract required contractors to submit an annual report that
                includes subcontract awards to only Afghanistan and Central and Southern Asia States12
                entities after the end of the annual performance period.                                          Therefore, contracting
                officials did not maintain a list of names for each subcontractor company because



                	11	
                       U.S. Government Accountability Office Report No. GAO-11-355, “AFGHANISTAN: U.S. Efforts to Vet Non-U.S. Vendors Need
                       Improvement,” June 2011; Special Inspector General for Afghanistan Reconstruction Audit 13-6, “CONTRACTING WITH
                       THE ENEMY: DOD Has Limited Assurance that Contractors with Links to Enemy Groups Are Identified and their Contracts
                       Terminated,” April 2013; and Congressional Research Service Report 7-5700, “Wartime Contracting in Afghanistan: Analysis and
                       Issues for Congress,” November 14, 2011.
                	12	
                       Central and Southern Asia States include Georgia, the Kyrgyz Republic, Pakistan, the Republic of Armenia, the Republic of
                       Azerbaijan, the Republic of Kazakhstan, the Republic of Tajikistan, the Republic of Uzbekistan, and Turkmenistan.




14 │ DODIG-2014-058
                                                                                                         Finding



the annual requirement did not require reporting of all subcontracted companies.
FAR subpart 1.6 states that the contracting officer is responsible for safeguarding
the interests of the United States in its contractual
relationships.    We understand that a comprehensive
list of subcontractors is not required by the FAR
for this contract; however, because of the                            Because of the
                                                                    vulnerabilities of
vulnerabilities    of     wartime     contracting       in         wartime contracting
Southwest Asia, having knowledge of all                         in Southwest Asia, having
subcontractors          performing     under          the    knowledge of all subcontractors
                                                                  performing under the
commercial        multimodal        contract        could
                                                                 commercial multimodal
help safeguard the Government’s interests.                    contract could help safeguard
USTRANSCOM should require the submission                            the Government’s
of all subcontracted companies’ names used by                           interests.
the prime contractors to help ensure the interests of
the United States.


USTRANSCOM Contracting Officials May Not Be Able to
Identify Excluded Parties
Without    maintaining       awareness         of    commercial   multimodal   subcontractors,
USTRANSCOM may not be able to identify if parties excluded from receiving Federal
contracts are used to conduct multimodal operations or if prime contractors used
subcontractors whose interests are against those of the U.S. Government and its
allies. We attempted to verify whether any of the subcontractor company names we
obtained were excluded from receiving Federal contracts.               However, without the
subcontractor’s complete legal names, we could not be sure if any excluded parties
were providing services under the commercial multimodal contract.                The multiple
reports regarding maintaining awareness of subcontractors and the minimal
Government involvement in the performance of the commercial multimodal contract
increase the need for oversight of the commercial multimodal contract and its
subcontractors in Dubai.


Conclusion
USTRANSCOM generally used effective procedures for processing commercial
multimodal cargo in Dubai.           Although we noted that containers were not sealed
in accordance with applicable regulations, USCENTCOM officials took appropriate
action to correct the deficiency. However, USTRANSCOM contracting officials did not
sufficiently oversee the commercial multimodal contract. The objective of contract




                                                                                               DODIG-2014-058 │ 15
Finding



                 oversight is to monitor contractor performance to assure the services received are
                 consistent with contract quality requirements and received in a timely manner. To be
                 effective, contract oversight requires appropriate and immediate on-site monitoring
                 of the services performed. USTRANSCOM contract officials need to increase oversight
                 efforts under the commercial multimodal contract, especially in Dubai. Dubai is a key
                 strategic route for the drawdown from Afghanistan, and large volumes of military cargo
                 will continue to be shipped through it, increasing the risks to contractor performance.
                 Therefore, to ensure the Government is receiving the best value for the warfighter,
                 USTRANSCOM should reduce the risks by appointing a COR in Dubai and implementing
                 procedures to obtain additional assurance that contractor-provided information
                 is accurate and that the Government is not subcontracting with excluded parties.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend the Director, U.S. Transportation Command Acquisitions, require
                 the contracting officer to appoint a contracting officer’s representative in Dubai.


                 U.S. Transportation Command Comments
                 The Deputy Commander, U.S. Transportation Command, agreed and stated
                 U.S. Transportation Command is confident that the current number and location of the
                 contracting officer representatives is sufficient to perform contract administration.
                 However, as an alternative, he stated U.S. Transportation Command will perform a
                 resource analysis to reassess the plausibility of placing a contracting officer’s
                 representative in Dubai.


                 Our Response
                 The response from the Deputy Commander, U.S. Transportation Command addressed
                 the recommendation by proposing an alternate action that meets the intent of the
                 recommendation; therefore, we are not requesting additional comments.


                 Recommendation 2
                 We recommend the Director, U.S. Transportation Command Acquisitions, require
                 the contracting officer to update the quality assurance surveillance plan to detail
                 procedures for periodically testing contractor-submitted in-transit visibility
                 transactions to ensure accurate data submission.




16 │ DODIG-2014-058
                                                                                                     Finding



U.S. Transportation Command Comments
The   Deputy    Commander,      U.S.   Transportation    Command,      agreed    with     the
recommendation. The Deputy Commander stated U.S. Transportation Command may
modify the quality assurance surveillance plan with procedures to conduct random
periodic tests for some of the contractor-submitted in-transit visibility transactions.


Our Response
The response from the Deputy Commander, U.S. Transportation Command partially
addressed the recommendation.          Although the Deputy Commander agreed with
the recommendation, he did not clearly indicate whether the quality assurance
surveillance plan will be updated or when.          Therefore, we request the Director,
U.S. Transportation Command Acquisitions, provide additional comments to the
recommendation by May 12, 2014.


Recommendation 3	
We recommend the Director, U.S. Transportation Command Acquisitions, require
the contracting officer to update the contract to require the prime contractors to
semi-annually submit a list of all subcontractor companies used.


U.S. Transportation Command Comments
The Deputy Commander, U.S. Transportation Command, agreed, stating that
U.S. Transportation Command will request from each of the five prime multimodal
contractors a list of all subcontractors used for commercial operations on a
semi-annual basis.    The Deputy Commander stated that the first submission will
be requested in conjunction with option year two; however, he noted that it is not
necessary to formally modify the contract to obtain the list.


Our Response
The response from the Deputy Commander, U.S. Transportation Command addressed
the recommendation. No further comments are required.




                                                                                           DODIG-2014-058 │ 17
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from May 2013 through March 2014 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objectives. We believe that the evidence obtained provides a reasonable basis for
                 our findings and conclusions based on our audit objectives.

                 This is one in a series of reports regarding USTRANSCOM’s support of the Afghanistan
                 drawdown. Our objective was to determine whether effective procedures are in place
                 to process equipment at transfer locations in Southwest Asia. Because our objective
                 consisted of four commercial or hybrid multimodal locations in Southwest Asia,
                 we focused this audit on commercial multimodal operations in Dubai and announced
                 an additional audit to focus on hybrid multimodal operations.

                 We conducted site visits to USTRANSCOM Headquarters, Scott Air Force Base,
                 Illinois, from June 11, 2013, through June 13, 2013, and Dubai, United Arab Emirates,
                 from September 2, 2013, through September 12, 2013.             We interviewed officials
                 from   USTRANSCOM,       USCENTCOM,      SDDC,   Ocean    Cargo    Clearance     Authority
                 Southwest Asia, the 595    th
                                                 Transportation Brigade, and the 840    th
                                                                                             Transportation
                 Battalion Detachment in Dubai. We also interviewed the CBCA and officials from three
                 of the five prime contractors in Dubai. In addition, we toured, observed, and tested
                 the commercial multimodal cargo operations at Al Maktoum International Airport and
                 the Jebel Ali seaport.

                 We compared our observations to contract documents and criteria obtained. Specifically,
                 we obtained and analyzed the commercial multimodal transportation contract,
                 performance work statement, COR appointment letters, and the QASP. We evaluated
                 the contract oversight, security, customs, and accountability procedures and
                 requirements.     We compared the contract documents and procedures to the
                 United States Code; the FAR; the Defense Federal Acquisitions Regulation Supplement;
                 and policy and guidance from the Department of Homeland Security, Office
                 of Management Budget, DoD, USCENTCOM, USTRANSCOM, and U.S. Army.

                 We obtained the 840th Transportation Battalion’s accountability report and selected
                 a nonstatistical sample of 65 items to conduct book-to-floor testing. We validated that




18 │DODIG-2014-058
                                                                                         Appendixes



the 65 items recorded in the accountability report as being in Dubai were at
Al Maktoum International Airport or the Jebel Ali seaport. While touring the seaport,
we also selected a nonstatistical sample of 25 items for floor to book testing. We
recorded data from the sampled items at the seaport and validated that the items
were included on the 840th Transportation Battalion’s accountability report. In total,
we reviewed 90 items at Al Maktoum International Airport and Jebel Ali seaport
comprising 39 rolling stock and 51 nonrolling stock items.      For all 90 items, we
reviewed whether they had the required documentation and verified whether the
items were processed in accordance with Federal and DoD guidance. Additionally,
for the 51 nonrolling stock items, we verified whether containers had the
required compliant customs seal.


Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.


Use of Technical Assistance
We obtained support from the DoD Office of Inspector General Quantitative Methods
Division in developing the nonstatistical sample for review.




                                                                                    DODIG-2014-058 │ 19
Appendixes




                 Appendix B
                 Prior Coverage
                 During the last 5 years, the Government Accountability Office (GAO), the Department
                 of Defense Inspector General (DoD OIG), the Army Audit Agency, the Air Force Audit
                 Agency, and the Special Inspector General for Afghanistan Reconstruction issued
                 10 reports related to the audit objective. Unrestricted GAO reports can be accessed
                 at http://www.gao.gov. Unrestricted DoD OIG reports can be accessed at
                 http://www.dodig.mil/pubs/index.cfm. Unrestricted Army reports can be accessed
                 from .mil and gao.gov domains at https://www.aaa.army.mil/. Unrestricted Special
                 Inspector General for Afghanistan Reconstruction reports can be accessed from
                 http://www.sigar.mil/audits/reports.html.


                 GAO
                 Report No. GAO-13-201, “Defense Logistics: A Completed Comprehensive Strategy is
                 Needed to Guide DOD’s In-Transit Visibility Efforts,” February 2013

                 Report No. GAO-13-185R, “Afghanistan Drawdown Preparations:            DOD Decision
                 Makers Need Additional Analyses to Determine Costs and Benefits of Returning
                 Excess Equipment,” December 2012

                 Report No. GAO-12-138, “Warfighter Support: DOD Has Made Progress, but Supply
                 and Distribution Challenges Remain in Afghanistan,” October 2011

                 Report No. GAO-11-355, “Afghanistan:        U.S. Efforts to Vet Non-U.S. Vendors Need
                 Improvement,” June 2011


                 DoD IG
                 Report No. DODIG-2013-066, “Transportation Planning is Sufficient for Retrograde
                 Operations; However, There Is an Opportunity to Improve the Efficiency of
                 Management Systems,” April 12, 2013

                 Report No. D-2011-100, “DoD Needs Bi-Directional Flow Agreements and Adequate
                 Tracking Mechanisms for the Northern Distribution Network,” August 19, 2011




20 │DODIG-2014-058
                                                                                      Appendixes



Army
Report No. A-2013-0048-MTE, “Materiel Management–Retrograde From Southwest Asia,”
February 1, 2013


Air Force
Report No. F2013-0017-RA0000, “Aerial Port Operations 451 Air Expeditionary Wing
Kandahar Air Base, Afghanistan,” February 20, 2013

Report No. F2013-0010-RA0000, “Aerial Port Operations 455th Air Expeditionary Wing
Bagram Air Field Afghanistan,” February 5, 2013


Special Inspector General for Afghanistan Reconstruction
Report No. SIGAR Audit 13-6, “Contracting with the Enemy: DOD Has Limited Assurance
that Contracts with Links to Enemy Groups Are Identified and their Contracts
Terminated,” April 2013




                                                                                 DODIG-2014-058 │ 21
Management Comments




                 Management Comments
                 U.S. Transportation Command




22 │ DODIG-2014-058
                                       Management Comments




U.S. Transportation Command (Cont’d)




                                            DODIG-2014-058 │ 23
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                             CBCA Customs and Border Clearance Agents
                              COR Contracting Officer Representative
                               EDI Electronic Data Interchange
                               FAR Federal Acquisition Regulation
                           ISO/PAS International Organization for Standardization/Publicly Available Specification
                               ITV In-Transit Visibility
                             QASP Quality Assurance Surveillance Plan
                             SDDC U.S. Military Surface Deployment and Distribution Command
                       USCENTCOM U.S. Central Command
                      USTRANSCOM U.S. Transportation Command




24 │ DODIG-2014-058
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
